                                                                         OFFICE OF WORKERS’

U.S. Department of Labor                                                 COMPENSATION PROGRAMS


                           Office of Inspector General—Office of Audit




                                                                         SPECIAL REPORT RELATING TO THE
                                                                         FEDERAL EMPLOYEES’ COMPENSATION ACT
                                                                         SPECIAL BENEFIT FUND
                                                                         September 30, 2013




                                                                          This report was prepared by KPMG LLP, under contract to the U.S.
                                                                          Department of Labor, Office of Inspector General, and by acceptance, it
                                                                          becomes a report of the Office of Inspector General.



                                                                                                           __________________________
                                                                                                           Assistant Inspector General for Audit
                                                                                                           U.S. Department of Labor




                                                                                                  Date Issued: November 22, 2013
                                                                                                 Report Number: 22-14-001-04-431
                                                                                  Special Report Relating to the
                                                        Federal Employees’ Compensation Act Special Benefit Fund

Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… .......................... 3

1.    Financial Section............................................................................................................... 5
      A.     Independent Auditors' Report on the Schedule of Actuarial Liability, Net
              Intra-Governmental Accounts Receivable and Benefit Expense ........................ 7

      B.     Schedule of Actuarial Liability, Net Intra-Governmental Accounts
              Receivable and Benefit Expense ......................................................................... 11

      C.     Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
              Accounts Receivable and Benefit Expense ........................................................ 13

2.    Agreed-Upon Procedures Section ................................................................................. 17
      A.     Independent Accountants' Report on Applying Agreed-Upon
              Procedures............................................................................................................. 19

      B.     Schedules by Agency

               I.         Schedule of Actuarial Liability by Agency ............................................. 21

               II.        Schedule of Net Intra-Governmental Accounts Receivable by
                          Agency ....................................................................................................... 23

               III.       Schedule of Benefit Expense by Agency ............................................... 25

      C.     Agreed-Upon Procedures and Results

               I.         Actuarial Liability ...................................................................................... 27

               II.        Net Intra-Governmental Accounts Receivable....................................... 35

               III.       Benefit Expense ........................................................................................ 39

Appendix
               Acronyms and Abbreviations ............................................................................. 45




Prepared by KPMG LLP, for the                                                                                                            1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

U.S. Department of Labor                      Office of Inspector General
                                              Washington, DC. 20210




                 Assistant Inspector General for Audit’s Memorandum

November 22, 2013


MEMORANDUM FOR:               FEDERAL AGENCIES WITH RESPONSIBILITIES
                              FOR THE FEDERAL EMPLOYEES’ COMPENSATION
                              ACT PROGRAM




FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General
                               for Audit

SUBJECT:                      Special Report Relating to the Federal Employees’
                              Compensation Act Special Benefit Fund – FY 2013
                              Report No. 22-14-001-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA)
Special Benefit Fund (Fund) that was prepared to assist in the audit of your agency’s
annual financial statements. The U.S. Department of Labor (DOL), Office of Workers’
Compensation Programs (OWCP), administers the Fund and the DOL Office of
Inspector General (OIG) is responsible for auditing the Fund.

The OIG contracted with the independent certified public accounting firm of KPMG LLP
(KPMG) to prepare the report on the Fund as of, and for the year ended,
September 30, 2013. This special report consists of two reports. The first report is an
opinion on the Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable, and Benefit Expense of the Fund as of, and for the year ended,
September 30, 2013, for which KPMG issued an unqualified opinion. In connection with
this audit, KPMG performed certain tests of controls and compliance with laws and
regulations related to the Fund. Its testing of controls disclosed no instances of
deficiencies in internal control over financial reporting that it consider to be significant
deficiencies and/or material weaknesses. KPMG’s testing of compliance disclosed no
instances of noncompliance or other matters that are required to be reported under
generally accepted government auditing standards (GAGAS).


Prepared by KPMG LLP, for the                                                                   3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

The second report is an agreed-upon procedures (AUP) report on the Schedules of
Actuarial Liability, Net Intra-Governmental Accounts Receivable, and Benefit Expense
of the Fund by agency as of, and for the year ended, September 30, 2013. This report
includes a description of the procedures performed and the results of those procedures.

The sufficiency of the procedures referred to in the AUP is solely the responsibility of
the parties specified in this report. Consequently, neither the OIG nor KPMG made any
representations regarding the sufficiency of the procedures. Because the AUPs
performed did not constitute an audit, KPMG did not express an opinion on any
elements, accounts, or items as they pertained to the AUP report. Furthermore, neither
the OIG nor KPMG had any obligation to perform any procedures beyond those listed in
the attached report.

KPMG is responsible for the attached reports dated November 22, 2013, and the
conclusions expressed therein. We reviewed KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from an
audit in accordance with GAGAS, was not intended to enable us to express, and we did
not express opinions on the schedule of actuarial liability, net intra-governmental
accounts receivable, and benefit expense of the Fund as of, and for the year ended,
September 30, 2013; or the AUP report on the schedules of actuarial liability, net
intra-governmental accounts receivable and benefit expense of the Fund by agency as
of, and for the year ended, September 30, 2013. Our review disclosed no instances
where KPMG did not comply, in all material respects, with GAGAS.

If you have any questions or comments, please send your questions or comments via
regular mail, facsimile, or e-mail to:

               Joseph L. Donovan, Jr.
               Audit Director, Financial Statement Audits
               U.S. Department of Labor
               Office of Inspector General
               200 Constitution Ave., N.W., Room S-5512
               Washington, D.C. 20210

               Fax: (202) 693-5169
               E-mail: donovan.joseph@oig.dol.gov

Attachment




4                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                                         Section 1

                                  Financial Section




Prepared by KPMG LLP, for the                                                                   5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                                Special Report Relating to the
                                                      Federal Employees’ Compensation Act Special Benefit Fund




                        KPMG LLP
                        Suite 12000
                        1801 K Street, NW
                        Washington, DC 20006




                                                       Section 1A
                                Independent Auditors’ Report


Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

Report on the Schedules
We have audited the accompanying schedule of actuarial liability and net intra-
governmental accounts receivable as of September 30, 2013, and of benefit expense
for the year then ended, of the U.S. Department of Labor’s Federal Employees’
Compensation Act Special Benefit Fund (the Fund), and the related notes (hereinafter
referred to as the schedule).
Management’s Responsibility for the Schedule
Management is responsible for the preparation and fair presentation of the schedule in
accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair
presentation of the schedule that is free from material misstatement, whether due to
fraud or error.
Auditors’ Responsibility
Our responsibility is to express an opinion on the schedule based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the schedule is free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts
and disclosures in the schedule. The procedures selected depend on the auditors’
judgment, including the assessment of the risks of material misstatement of the
schedule, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the
schedule in order to design audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the entity’s
Prepared by KPMG LLP, for the                                                                               7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the
overall presentation of the schedule.
We believe that the audit evidence we have obtained is sufficient and appropriate to
provide a basis for our audit opinion.
Opinion on the Schedule
In our opinion, the schedule referred to above presents fairly, in all material respects,
the actuarial liability and net intra-governmental accounts receivable as of
September 30, 2013, and benefit expense for the year then ended, in accordance with
U.S. generally accepted accounting principles.
Emphasis of Matter
We draw attention to Note 1.b to the schedule, which describes the basis of
presentation. The schedule was prepared by management for the purpose of providing
this information to the Chief Financial Officers Act agencies and other specified
agencies to support and prepare their respective financial statements. The schedule is
not intended to be a complete presentation of the Fund’s financial position, its net cost,
changes in net position or budgetary resources. Our opinion is not modified with respect
to this matter.
Other Reporting Required by Government Auditing Standards
Internal Control Over Financial Reporting
In planning and performing our audit of the schedule, we considered the Fund’s internal
control over financial reporting (internal control) to determine the audit procedures that
are appropriate in the circumstances for the purpose of expressing our opinion on the
schedule, but not for the purpose of expressing an opinion on the effectiveness of the
Fund’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the Fund’s internal control. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct, misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control
that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance.
8                                                                   Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




Our consideration of internal control was for the limited purpose described in the first
paragraph of this section and was not designed to identify all deficiencies in internal
control that might be material weaknesses or significant deficiencies. Given these
limitations, during our audit we did not identify any deficiencies in internal control that
we consider to be material weaknesses. However, material weaknesses may exist that
have not been identified.
Compliance and Other Matters
As part of obtaining reasonable assurance about whether the Fund’s schedule is free
from material misstatement, we performed tests of its compliance with certain provisions
of laws, regulations, and contracts, noncompliance with which could have a direct and
material effect on the determination of schedule amounts. However, providing an
opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests of compliance
disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards.
Purpose of the Other Reporting Required by Government Auditing Standards
The purpose of the communication described in the Other Reporting Required by
Government Auditing Standards section is solely to describe the scope of our testing of
internal control and compliance and the result of that testing, and not to provide an
opinion on the effectiveness of the Department of Labor’s internal control or compliance.
Accordingly, this communication is not suitable for any other purpose.




November 22, 2013




Prepared by KPMG LLP, for the                                                                   9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund
                                          SECTION 1B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
            Schedule of Actuarial Liability and Net Intra-Governmental
        Accounts Receivable as of September 30, 2013, and Benefit Expense
                     For the Year Ended September 30, 2013
                             (Dollars in Thousands)

       Actuarial Liability                                                    $ 36,787,794


       Net Intra-Governmental Accounts Receivable                              $ 5,347,259


       Benefit Expense                                                         $ 5,475,377




                             See accompanying notes to the Schedule.




Prepared by KPMG LLP, for the                                                                 11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund
                                          SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2013, and Benefit Expense
                     For the Year Ended September 30, 2013

1.     Significant Accounting Policies

       a.   Reporting Entity

       The U.S. Department of Labor’s (DOL) Federal Employees’ Compensation Act
       (FECA) Special Benefit Fund (the Special Benefit Fund) was established by the
       FECA to provide income and medical cost protection to covered Federal civilian
       employees injured on the job, employees who have incurred a work-related
       occupational disease, and beneficiaries of employees whose death is attributable
       to a job-related injury or occupational disease. The fund is reimbursed by other
       Federal agencies for the FECA benefit payments made on behalf of their
       workers. The DOL, Office of Workers’ Compensation Programs (OWCP) is
       charged with the responsibility of operating the Special Benefit Fund under the
       provisions of FECA.

       b.   Basis of Presentation

       The Schedule of Actuarial Liability and Net Intra-Governmental Accounts
       Receivable as of September 30, 2013, and Benefit Expense for the year ended
       September 30, 2013, of the Special Benefit Fund (the schedule) has been
       prepared to report the actuarial liability, net intra-governmental accounts
       receivable, and benefit expense of the Special Benefit Fund. OWCP is
       responsible for providing this information to the Chief Financial Officers Act (CFO
       Act) agencies and other specified agencies to support and prepare their
       respective financial statements. The schedule has been prepared from the
       accounting records of the Special Benefit Fund. The actuarial liability, net intra-
       governmental accounts receivable, and benefit expense of the Special Benefit
       Fund are considered specified accounts for the purpose of this schedule. The
       schedule is not intended to be a complete presentation of the Fund’s financial
       position, its net cost, changes in net position or budgetary resources.

       c.   Basis of Accounting

       The schedule has been prepared on the accrual basis of accounting in
       conformity with U.S. generally accepted accounting principles.




Prepared by KPMG LLP, for the                                                                  13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

       d.   Actuarial Liability (Future Workers’ Compensation Benefits)

       The actuarial liability for future workers’ compensation benefits reported on the
       schedule includes the expected liability for death, disability, medical and
       miscellaneous costs for approved cases as well as an estimate for those cases
       incurred but not reported. The liability is determined using a method that utilizes
       historical benefit payment patterns related to a specific incurred period to predict
       the ultimate payments related to that period. The actuarial model uses a Paid
       Loss Development Method by agency, by defined agency groups, and in total,
       using inflation rate assumptions on both past and future indemnity and medical
       benefits to adjust past data and project forward.

       As required under U.S. generally accepted accounting principles, these projected
       annual benefit payments have been discounted to present value. Consistent with
       past practice, OWCP used the Office of Management and Budget's (OMB)
       economic assumptions for Treasury notes. The interest rates were selected by
       interpolation for Treasury notes with maturities that match average FECA
       compensation and medical cash flow durations.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, a wage inflation factor (cost-of-living allowance)
       (COLA), and a medical inflation factor (consumer price index-medical) (CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current-year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The medical inflation rates used in the actuarial model represent an average of
       published quarterly rates covering the benefit payment fiscal year. The
       compensation factors are the blended COLA factor rates used by the model.
       COLA rates for FECA are updated March 1st of each calendar year by the Office
       of Personnel Management and remain applicable until the end of February of the
       next year. As such, the actuarial model overlaps two COLA rate periods,
       therefore, the COLA factor rates are a blend of the rates for the two periods.

       e.   Net Intra-governmental Accounts Receivable

       The net intra-governmental accounts receivable is the amount due from Federal
       agencies for benefit payments paid to or on behalf of employees of the
       employing agency as of September 30, 2013. Intra-governmental accounts
       receivable are considered fully collectible.




14                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

2.     Actuarial Liability (Future Workers’ Compensation Benefits)

       The interest rates used to discount compensation benefits in fiscal year (FY)
       2013 were 2.73% for year 1 and 3.13% for subsequent years. The interest rates
       used to discount medical benefits in FY 2013 were 2.33% for year 1 and 2.87%
       for subsequent years.

       The compensation COLA and the CPI-Med used in the actuarial model
       calculation of estimates for FY 2013 were as follows:

                             FY            COLA          CPI-Med

                           2014            1.67%           3.46%
                           2015            1.80%           3.82%
                           2016            2.20%           3.83%
                           2017            2.20%           3.82%
                           2018            2.20%           3.82%


3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable for the year ended September 30,
       2013, consisted of the following (dollars in thousands):


                 Billed, but not paid as of year end             $ 4,574,322
                 Benefit payments not yet billed                     796,088
                 Credits due from the Public                         (23,151)

                     Total net intra-governmental
                     accounts receivable                         $ 5,347,259


       The FECA Special Benefit Fund also receives an appropriation for special cases
       and older cases where employing agencies are not charged for benefit
       payments.

       Each Federal agency is required by FECA to include in its annual budget
       estimate a request for an appropriation in the amount equal to the agency cost.
       Agencies not receiving an appropriation are required to pay agency costs from
       funds directly under their control. In addition, certain corporations and
       instrumentalities are assessed under FECA for a fair share of the costs of
       administering disability claims filed by their employees. The fair share costs are
       included in the calculation to determine the net intra-governmental accounts
       receivable.

Prepared by KPMG LLP, for the                                                                  15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

4.     Benefit Expense
       Benefit expense for the year ended September 30, 2013, consisted of the
       following (dollars in thousands):

                 Benefits paid for compensation                 $ 2,057,871
                 Benefits paid for medical benefits                 935,251
                 Change in accrued benefits                         (45,417)
                 Change in actuarial liability                    2,527,672

                    Total benefit expense                       $ 5,475,377

5.     Material Concentration of Risk

       The U.S. Postal Service (USPS) represents 43% of the actuarial liability and 32%
       of the net intra-governmental accounts receivable to the Special Benefit Fund as
       of September 30, 2013.The USPS’s portion of the FECA actuarial liability and net
       intra-governmental accounts receivable as of September 30, 2013, together with
       the USPS’s poor financial condition, represent a material concentration of risk for
       the Special Benefit Fund.

       In October 2013, the USPS timely reimbursed the FECA Special Benefits Fund
       for costs incurred on its behalf during the 12 months ended June 30, 2013. In the
       USPS FY 2013 quarterly report for the nine months ended June 30, 2013, USPS
       disclosed in the notes to its unaudited interim financial statements its severe lack
       of liquidity.




16                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                                         Section 2

                   Agreed-Upon Procedures Section




Prepared by KPMG LLP, for the                                                                  17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                                Special Report Relating to the
                                                      Federal Employees’ Compensation Act Special Benefit Fund




                     KPMG LLP
                     Suite 12000
                     1801 K Street, NW
                     Washington, DC 20006


                                                       Section 2A
                             Independent Accountants’ Report
                           on Applying Agreed-Upon Procedures



Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

Agencies Specified in Section 2B of this Report

We have performed the procedures enumerated in Section 2C, Agreed-Upon
Procedures and Results, which were agreed to by the U.S. Department of Labor (DOL)
Office of Workers’ Compensation Programs (OWCP) and Federal agencies participating
in the Federal Employees’ Compensation Act (FECA) program specified in Section 2B
(Federal agencies), solely to assist you and such Federal agencies in evaluating the
accompanying Schedules of Actuarial Liability by Agency and Net Intra-Governmental
Accounts Receivable by Agency as of September 30, 2013 and Schedule of Benefit
Expense by Agency for the year ended, of the DOL FECA Special Benefit Fund
(hereinafter referred to as the “Schedules”).
Management is responsible for the Schedules (Section 2B). This agreed-upon
procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and the standards
applicable to attestation engagements contained in the Government Auditing Standards,
issued by the Comptroller General of the United States.
The sufficiency of these procedures is solely the responsibility of those parties specified
in this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. The procedures we performed and the
associated results are presented in Section 2C of this report.
We were not engaged to, and did not, conduct an examination, the objective of which
would be the expression of an opinion on the Schedules. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might
have come to our attention that would have been reported to you.


Prepared by KPMG LLP, for the                                                                              19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the DOL OWCP and the
Federal agencies, and is not intended to be and should not be used by anyone other
than these specified parties.



November 22, 2013




20                                                                  Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                      Report No: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund
                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                       I. Schedule of Actuarial Liability by Agency
                                As of September 30, 2013
                                 (Dollars in Thousands)

                                                                                Actuarial
 AGENCY                                                                         Liability
 Agency for International Development                                          $    26,047
 Environmental Protection Agency                                                    51,818
 General Services Administration                                                   138,657
 National Aeronautics and Space Administration                                      50,822
 National Science Foundation                                                         1,425
 Nuclear Regulatory Commission                                                       7,023
 Office of Personnel Management                                                     24,750
 U.S. Postal Service                                                           15,824,912
 Small Business Administration                                                      33,703
 Social Security Administration                                                    368,218
 Tennessee Valley Authority                                                        460,475
 U. S. Department of Agriculture                                                   986,318
 U. S. Department of the Air Force                                               1,441,960
 U. S. Department of the Army                                                    1,927,282
 U. S. Department of Commerce                                                      242,691
 U. S. Department of Defense – other                                               888,494
 U. S. Department of Education                                                      17,575
 U. S. Department of Energy                                                        101,333
 U. S. Department of Health and Human Services                                     292,875
 U. S. Department of Homeland Security                                           2,507,229
 U. S. Department of Housing and Urban Development                                  76,903
                                                                                     (continued)



Prepared by KPMG LLP, for the                                                                  21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund
                                                        SECTION 2B
                                   U.S. Department of Labor
                         Office of Workers’ Compensation Programs
                 Federal Employees’ Compensation Act Special Benefit Fund
                               I. Schedule of Actuarial Liability by Agency
                                        As of September 30, 2013
                                         (Dollars in Thousands)

                                                                                                             Actuarial
 AGENCY                                                                                                      Liability
 U. S. Department of the Interior                                                                             $ 846,634
 U. S. Department of Justice                                                                                  1,632,706
 U. S. Department of Labor                                                                                       243,612
 U. S. Department of the Navy                                                                                 2,492,678
 U. S. Department of State                                                                                         88,426
 U. S. Department of Transportation                                                                           1,047,454
 U. S. Department of the Treasury                                                                                618,603
 U. S. Department of Veterans Affairs                                                                         2,220,399
 Other agencies and non-billable1                                                                             2,126,772
 Total - all agencies                                                                                    $ 36,787,794

1 This amount represents other agencies for which OWCP has not individually calculated an actuarial liability, as well as the
actuarial amounts of non-billable payments.




22                                                                                   Prepared by KPMG LLP, for the
                                                                U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 22-14-001-04-431
                                                                                                Special Report Relating to the
                                                                      Federal Employees’ Compensation Act Special Benefit Fund
                                                                     SECTION 2B
                                        U.S. Department of Labor
                              Office of Workers’ Compensation Programs
                      Federal Employees’ Compensation Act Special Benefit Fund
                                            II. Schedule of Net Intra-Governmental
                                                Accounts Receivable by Agency
                                                   As of September 30, 2013
                                                    (Dollars in Thousands)

                                                                                                      Amounts                        Net Intra-
                                                                              Amounts                 Expended         Credits     Governmental
                                                                              Billed Not               Not Yet        Due from       Accounts
AGENCY                                                                       Yet Paid (1)             Billed (2)      Public (3)   Receivable (4)
Agency for International Development                                                 $ 7,304                  $ 897       ($ 26)          $ 8,175
Environmental Protection Agency                                                          9,366                1,251         (36)             10,581
General Services Administration                                                       27,696                  3,643        (106)             31,233
National Aeronautics and Space
Administration                                                                        10,552                  1,238         (36)             11,754
National Science Foundation                                                                 332                 45           (1)               376
Nuclear Regulatory Commission                                                            1,493                 181           (5)              1,669
Office of Personnel Management                                                           4,601                 667          (19)              5,249
United States Postal Service                                                     1,372,104                  356,779     (10,375)       1,718,508
Small Business Administration                                                            5,131                 745          (22)              5,854
Social Security Administration                                                        52,538                  7,135        (207)             59,466
Tennessee Valley Authority                                                            56,104                 12,611        (367)             68,348
U. S. Department of Agriculture                                                     146,291                  19,435        (565)         165,161
U. S. Department of the Air Force                                                   260,599                  33,438        (972)         293,065
U. S. Department of the Army                                                        266,405                  34,001        (989)         299,417
U. S. Department of Commerce                                                          32,812                  4,461        (130)             37,143
U. S. Department of Defense – other                                                 188,252                  28,577        (831)         215,998
U. S. Department of Education                                                            3,657                 380          (11)              4,026
U. S. Department of Energy                                                            16,387                  2,643         (77)             18,953
                                                                                                                               (continued)
 1 Amount billed through June 30, 2013 (including prior years) but not yet paid as of September 30, 2013.
 2 Amounts paid and accrued but not yet billed for the period July 1, 2013 through September 30, 2013.
 3 Allocation of credits due from the public through September 30, 2013.
 4 Total amount due to the fund for each agency as of September 30, 2013.




 Prepared by KPMG LLP, for the                                                                                                          23
 U.S. Department of Labor—Office of Inspector General
 Report Number: 22-14-001-04-431
 Special Report Relating to the
 Federal Employees’ Compensation Act Special Benefit Fund
                                                                       SECTION 2B
                                        U.S. Department of Labor
                              Office of Workers’ Compensation Programs
                      Federal Employees’ Compensation Act Special Benefit Fund
                                            II. Schedule of Net Intra-Governmental
                                                Accounts Receivable by Agency
                                                   As of September 30, 2013
                                                    (Dollars in Thousands)

                                                                                                         Amounts                       Net Intra-
                                                                              Amounts                    Expended        Credits     Governmental
                                                                              Billed Not                  Not Yet       Due from       Accounts
AGENCY                                                                       Yet Paid (1)                Billed (2)     Public (3)   Receivable (4)
U. S. Department of Health and Human
Services                                                                            $ 55,300                  $ 7,258      ($ 211)         $ 62,347
U. S. Department of Homeland Security                                                358,537                  50,328       (1,464)         407,401
U. S. Department of Housing and Urban
Development                                                                            15,168                  1,774          (52)          16,890
U. S. Department of the Interior                                                     120,486                  15,321         (446)         135,361
U. S. Department of Justice                                                          234,643                  33,187         (965)         266,865
U. S. Department of Labor                                                              43,284                  6,832         (199)          49,917
U. S. Department of the Navy                                                         462,618                  59,860       (1,741)         520,737
U. S. Department of State                                                              19,016                  2,471          (72)          21,415
U. S. Department of Transportation                                                   195,921                  24,746         (720)         219,947
U. S. Department of the Treasury                                                     110,042                  14,542         (423)         124,161
U. S. Department of Veterans Affairs                                                 398,533                  56,079       (1,631)         452,981
Other agencies                                                                         99,150                 15,563         (452)         114,261
Total - all agencies                                                          $ 4,574,322                   $ 796,088   ($ 23,151)      $ 5,347,259


 1 Amount billed through June 30, 2013 (including prior years) but not yet paid as of September 30, 2013.
 2 Amounts paid and accrued but not yet billed for the period July 1, 2013 through September 30, 2013.
 3 Allocation of credits due from public through September 30, 2013.
 4 Total amount due to the fund for each agency as of September 30, 2013.




 24                                                                                                Prepared by KPMG LLP, for the
                                                                              U.S. Department of Labor—Office of Inspector General
                                                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                               U.S. Department of Labor
                     Office of Workers’ Compensation Programs
             Federal Employees’ Compensation Act Special Benefit Fund
                       III. Schedule of Benefit Expense by Agency
                                 As of September 30, 2013
                                  (Dollars in Thousands)

                                                       Benefits Paid
                                                       and Change      Change in         Total
                                                        in Accrued     Actuarial        Benefit
AGENCY                                                    Benefits      Liability      Expense

Agency for International Development                         $ 3,444        $ 2,465        $ 5,909
Environmental Protection Agency                                4,407          4,913          9,320
General Services Administration                              12,966           5,855        18,821
National Aeronautics and Space Administration                  4,714           433           5,147
National Science Foundation                                     160              59           219
Nuclear Regulatory Commission                                   651           (201)           450
Office of Personnel Management                                 2,318          1,460          3,778
United States Postal Service                               1,276,364     1,420,881      2,697,245
Small Business Administration                                  2,544          2,112          4,656
Social Security Administration                               25,146         17,889         43,035
Tennessee Valley Authority                                   45,721           3,567        49,288
U. S. Department of Agriculture                              70,517         41,965        112,482
U. S. Department of the Air Force                           121,760         57,997        179,757
U. S. Department of the Army                                161,961         44,721        206,682
U. S. Department of Commerce                                 16,234         14,701         30,935
U. S. Department of Defense – other                          65,519         41,413        106,932
U. S. Department of Education                                  1,605           934           2,539
U. S. Department of Energy                                     9,099          7,984        17,083
U. S. Department of Health and Human Services                26,744         19,503         46,247
U.S. Department of Homeland Security                        182,063        277,726        459,789
                                                                                      (continued)

Prepared by KPMG LLP, for the                                                                  25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund
                                                        SECTION 2B
                                   U.S. Department of Labor
                         Office of Workers’ Compensation Programs
                 Federal Employees’ Compensation Act Special Benefit Fund
                               III. Schedule of Benefit Expense by Agency
                                         As of September 30, 2013
                                          (Dollars in Thousands)

                                                                        Benefits Paid
                                                                        and Change               Change in               Total
                                                                         in Accrued              Actuarial              Benefit
AGENCY                                                                     Benefits               Liability            Expense
U. S. Department of Housing and Urban
Development                                                                      $ 6,782               $ 1,326              $ 8,108
U. S. Department of the Interior                                                  56,414                44,079             100,493
U. S. Department of Justice                                                      115,568              158,427              273,995
U. S. Department of Labor                                                         18,310                11,617                  29,927
U. S. Department of the Navy                                                     216,610                64,981             281,591
U. S. Department of State                                                           9,164                 9,486                 18,650
U. S. Department of Transportation                                                91,333                29,684             121,017
U. S. Department of the Treasury                                                  53,583                42,294                  95,877
U. S. Department of Veterans Affairs                                             197,252              206,291              403,543
Other agencies and non-billable (1)                                              148,752                (6,890)            141,862
Total - all agencies                                                       $ 2,947,705           $ 2,527,672          $ 5,475,377


1 This amount represents other agencies for which OWCP has not individually calculated an actuarial liability, as well as the
amounts associated with non-billable payments.




26                                                                                   Prepared by KPMG LLP, for the
                                                                U.S. Department of Labor—Office of Inspector General
                                                                                   Report Number: 22-14-001-04-431
                                                                     Special Report Relating to the
                                           Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                           Agreed-Upon Procedures and Results

       I.     Actuarial Liability

    Agreed-Upon Procedures Performed               Results of Procedures

    1) Compare the actuarial liability, by         No differences were noted as a result of
       agency, as of September 30, 2013,           applying this procedure.
       as reported in the Memorandum to
       the Chief Financial Officers (CFO) of
       Executive Departments issued by
       DOL's Chief Financial Officer, to the
       liability calculated by the DOL loss
       development actuarial model 1 (DOL
       model) as of September 30, 2013.
       Report any differences.

    2) Calculate the actuarial liability as of     The actuarial liability calculated using the
       September 30, 2013, using KPMG’s            KPMG model was less than the actuarial
       loss development actuarial model 2          liability  per   the DOL model by
       (KPMG model) and compare it to the          $831,680,100, or 2.26% of the actuarial
       actuarial liability per the DOL model       liability per the DOL model as of
       as of September 30, 2013. Report            September 30, 2013.
       any differences.

                                                                                        (continued)




1
  The DOL model used a Paid Loss Development Method by Agency, by defined Agency groups, and in
total. The DOL model used inflation rate assumptions on both past and future indemnity and medical
benefits to adjust past data and project forward.
2
  KPMG’s model used actual data to evaluate trends and project future payments. KPMG’s model also
supplements its methodology with the number of workers related to each Agency in injury years 2007
through 2012.
Prepared by KPMG LLP, for the                                                                      27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                          Agreed-Upon Procedures and Results

     I.     Actuarial Liability

 Agreed-Upon Procedures Performed                Results of Procedures

 3) Recalculate the actuarial liability as       No differences were noted as a result of
    of September 30, 2013, using the             applying this procedure.
    DOL model, and compare it to the
    liability calculated by DOL in their
    DOL model as of September 30,
    2013. For any identified differences,
    determine if DOL corrected the
    differences in their final DOL model
    by agreeing (a) KPMG’s recalculated
    actuarial liability as of September 30,
    2013, using the final DOL model to
    (b) the actuarial liability reported in
    the Special Report Relating to the
    Federal Employees’ Compensation
    Act Special Benefit Fund. Report any
    differences.

                                                                                     (continued)




28                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                          Agreed-Upon Procedures and Results

   I.      Actuarial Liability

 Agreed-Upon Procedures Performed                  Results of Procedures

 4) Compare the interest rate and                  The DOL model calculated the duration of
    inflation (Cost of living allowance            expected cash flow payments for
    (COLA), Consumer price index –                 compensation and medical separately in
    medical (CPI-Med)) assumptions                 total, for all agencies combined. KPMG’s
    used in the DOL model as of                    model included separate interest rate by
    September 30, 2013, to the interest            agency based on the average duration of
    rate and inflation (COLA, CPI-Med)             cash flows for the particular agency. See
    assumptions used in KPMG’s model               below for the DOL and KPMG interest
    as of September 30, 2013. Report               rates:
    any differences.
                                                         Projection       DOL       KPMG
                                                                        Interest   Interest
                                                                          Rate       Rate
                                                       Compensation – 2.73%      3.05-3.50%
                                                       Year 1
                                                       Compensation – 3.13%      3.05-3.50%
                                                       Year 2 and after
                                                       Medical – Year 1 2.33%    3.07-3.61%
                                                       Medical          2.87%    3.07-3.61%

                                                   In addition, KPMG’s model    uses an implicit
                                                   inflation rate included       in the loss
                                                   development patterns         selected and
                                                   therefore does not use an    explicit inflation
                                                   rate assumption.
                                                                                     (continued)




Prepared by KPMG LLP, for the                                                                  29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                          Agreed-Upon Procedures and Results

     I.     Actuarial Liability

 Agreed-Upon Procedures Performed                Results of Procedures

5) Compare the average interest rate The average interest rate and inflations rate
   and average inflation rate (COLA and variances are as follows:
   CPI-Med) assumptions used in the
   DOL model as of September 30,           Average Rate       2012      2013
   2012, to the average interest rate and                             Increase/
   average inflation rate (COLA and                                  (Decrease)
   CPI-Med) assumptions used in the Interest –                 3.11%       0.01%
   DOL model as of September 30, compensation
   2013. Report any variances.            Interest –           3.14%     (0.27%)
                                          medical
                                          COLA                 2.05%       0.12%
                                          CPI-Med              3.79%       0.02%


                                                                                     (continued)




30                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                          Agreed-Upon Procedures and Results

   I.      Actuarial Liability

 Agreed-Upon Procedures Performed Results of Procedures

 6) Calculate the percentage change             As a result of the procedure performed, we
    in the actuarial liability for each         identified the following agencies that had a
    Agency by subtracting their                 change in actuarial liability of greater than
    respective actuarial liability as of        10 percent during FY 2013. For these
    September 30, 2012, from the                agencies, we noted the following changes in
    September 30, 2013 balance,                 benefit expenses from September 30, 2012,
    based on the DOL model, and                 to September 30, 2013.
    dividing this difference by the
    actuarial liability balance as of                              Percentage Percentage
    September 30, 2012. Identify                                    change in  change in
    agencies whose actuarial liability                 Agency
                                                                    actuarial   benefit
    changed by more than 10 percent                                  liability payments
    during fiscal year (FY) 2013, and
                                                 DOS                    12.02%    10.70%
    for such agencies, calculate the
                                                 USAID                  10.45%    (0.98%)
    percentage change in benefit
    payments by comparing the                    DOJ                    10.75%      3.95%
    benefit payment amounts from the             EPA                    10.47%    (0.39%)
    Summary       Chargeback       Billing       VA                     10.24%      3.13%
    Report for the year ended                    DHS                    12.46%      6.42%
    September        30,    2012,        to
    September 30, 2013. Report the
    names of any agency identified
    and the percentage change in the
    benefit payment.
                                                                                     (continued)




Prepared by KPMG LLP, for the                                                                  31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                          Agreed-Upon Procedures and Results

     I.     Actuarial Liability

 Agreed-Upon Procedures Performed                Results of Procedures

 7) Compare the interest rate (used for          No differences were noted as a result of
    discounting the future liability to the      applying this procedure.
    present value) and inflation rate
    (COLA and CPI-Med) assumptions
    used in the DOL model as of
    September 30, 2013, to the interest
    rate (used for discounting the future
    liability to the present value) and
    inflation rates (COLA and CPI-Med)
    published      by  the    Office     of
    Management and Budget in the FY
    2013 Mid-Session Review. Report
    any differences.


 8) Compare both the benefit payments            No differences were noted as a result of
    by agency for the chargeback year            applying this procedure.
    ended June 30, 2013, and the
    aggregate benefit payments for the
    chargeback years ended June 30,
    2008 - 2013 used in the DOL model,
    with the benefit payments by agency
    for the chargeback year ended June
    30, 2013, and the aggregate benefit
    payments for the chargeback years
    ended June 30, 2008 - 2013, as
    reported     in     the    Summary
    Chargeback Billing Report. Report
    any differences.

                                                                                     (continued)




32                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                          Agreed-Upon Procedures and Results

   I.      Actuarial Liability

 Agreed-Upon Procedures Performed                  Results of Procedures

 9) Compare the estimated FY 2013                  As a result of applying this procedure, we
    benefit payments calculated by the             identified the following agency that varied
    2012 DOL model to the actual FY                by more than 20 percent and $2 million.
    2013 benefit payments from the DOL
    Summary Chargeback Billing Report.                               Percent           Dollar
    Identify and report the agencies                    Agency
                                                                     variance        variance
    where the 2012 DOL model                           DOS              48.53%        3,082,946
    estimated benefit payments varied
    by more than 20 percent and $2
    million from the actual benefit
    payments reported in the fiscal year
    2013 DOL Summary Chargeback
    Billing Report.

                                                                                     (continued)




Prepared by KPMG LLP, for the                                                                  33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                          Agreed-Upon Procedures and Results

       I.    Actuarial Liability

    Agreed-Upon Procedures Performed             Results of Procedures

    10) Compare the net effective rates          The net effective rate (interest minus
        (interest minus inflation rates) for     inflation rate 3) for compensation of 0.95%
        compensation and medical used in         used in the DOL model as of September
        the U.S. Postal Service (USPS), U.S.     30, 2013 is greater than the net effective
        Office of Personnel Management           rate used for compensation in the USPS
        (OPM), Social Security Administration    (-0.10%) development actuarial model and
        (SSA),        Energy      Employees’     less than the net effective rate used for
        Occupation Illness Compensation          compensation in the OPM (2.00%), SSA
        Program (EEOICP), and the Blank          (2.52%), EEOICP (2.83%), and BLDTF
        Lung Disability Trust Fund (BLDTF)       (4.08%) loss development models as of
        loss development actuarial models as     September 30, 2013.
        of September 30, 2013, to the net
        effective rates for compensation and     The net effective rate (interest rate minus
        medical used by the DOL model as of      inflation rate 4) for medical of -0.94% used
        September 30, 2013. Report any           in the DOL model as of September 30,
        differences.                             2013, is greater than the net effective rate
                                                 for medical used in the Postal Service
                                                 (-6.10%) loss development actuarial
                                                 model, and less than the net effective rate
                                                 for medical used in EEIOCP (1.25%) and
                                                 BLDTF (1.31%) loss development actuarial
                                                 models as of September 30, 2013.

                                                 We did not complete this procedure for net
                                                 effective rates for medical used by OPM
                                                 and SSA because the rates were not
                                                 provided.




3
 COLA
4
 CPI-Med
34                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                          Agreed-Upon Procedures and Results

   II.     Net Intra-governmental Accounts Receivable

 Agreed-Upon Procedures Performed                  Results of Procedures

 11) Obtain a list of appropriate                  As a result in applying this procedure, we
     representatives for all CFO Act               identified the following agencies that had
     agencies and the USPS from the                differences between accounts receivable
     DOL       Office     of      Workers’         balances confirmed as of June 30, 2013, to
     Compensation Programs (OWCP),                 the amounts as of June 30, 2013 posted
     and send letters to confirm the gross         on the DOL website:
     accounts receivable balances due as
     of June 30, 2013. Compare the                                   Dollar          Percent
     confirmed     accounts     receivable              Agency
                                                                   difference       difference
     balances as of June 30, 2013, to the              DHHS              ($509)        (0.00%)
     amounts posted on the DOL website.
                                                       DHS           $203,519            0.05%
     Report any differences.
                                                       DOC           $147,426            0.39%
                                                       DOD -
                                                                       ($5,574)        (0.00%)
                                                       Other
                                                       DOE           $160,663            0.98%
                                                       DOI            ($5,136)         (0.00%)
                                                       DOJ         $1,906,013            0.81%
                                                       DOL            ($1,623)         (0.00%)
                                                       DOS              ($618)         (0.00%)
                                                       DOT            $15,169            0.01%
                                                       GSA           ($10,588)         (0.04%)
                                                       SBA           $131,146            2.49%
                                                       SSA            ($1,922)         (0.00%)
                                                       TREAS          $16,188            0.02%
                                                       USDA            $1,139            0.00%
                                                       USPS       $67,032,334            4.89%
                                                       VA             $60,901            0.02%




Prepared by KPMG LLP, for the                                                                  35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                          Agreed-Upon Procedures and Results

     II.    Net Intra-governmental Accounts Receivable


 12) Recalculate the September 30,               The recalculated September 30, 2013 net
     2013,      net     intra-governmental       intra-governmental accounts receivable
     accounts receivable balances for            balance was more than the FY 2013
     each agency by a) adding the FY             amount reported in the detailed general,
     2013 bills sent to Federal agencies         less the FY 2013 change in other credits
     to the prior-year ending balance from       due from the public reported in the detailed
     prior year’s special report; b)             general ledger, by $1,950,158.
     subtracting the current year’s cash
     collections as reported by the OCFO
     on the SF-224s; and c) adding the
     change in the fourth quarter unbilled
     accounts receivable from FY 2012.
      Compare         the       recalculated
      September 30, 2013 net intra-
      governmental accounts receivable
      balances to the FY 2013 amount
      reported in the detailed general
      ledger less the FY 2013 change in
      other credits due from the public
      reported in the detailed general
      ledger. Report any differences.

                                                                                     (continued)




36                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                          Agreed-Upon Procedures and Results

   II.     Net Intra-governmental Accounts Receivable

 Agreed-Upon Procedures Performed                  Results of Procedures

 13) Compare        the      recalculated          As a result of applying this procedure, we
     September 30, 2013, net intra-                identified the following agencies that had
     governmental accounts receivable              differences above 1 percent:
     balance for each Agency to the
     balances reported by the OCFO in                                           Percent
     the Liability for Current Federal                    Agency
                                                                               Difference
     Employee’s     Compensation      Act              SBA                            2.25%
     Benefit report as of September 30,                NAVY                          (1.10%)
     2013. Report any differences above                DOL                           11.99%
     1 percent.

 14) Compare the Summary Chargeback                No differences were identified as a result
     Billing Report for the period July 1,         of applying this procedure.
     2012, through June 30, 2013, to the
     bills sent to Federal entities dated
     July    31,   2013.    Report    any
     differences.


 15) Compare the Allocation of Accrued             No differences were identified as a result
     Benefits as of September 30, 2013,            of applying this procedure.
     recorded on the OCFO Liability for
     Current       Federal    Employees’
     Compensation Act Benefits report as
     of September 30, 2013, to the
     accrual      calculation  worksheet
     prepared by DOL. Report any
     differences.

                                                                                     (continued)




Prepared by KPMG LLP, for the                                                                  37
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                          Agreed-Upon Procedures and Results

     II.   Net Intra-governmental Accounts Receivable

 Agreed-Upon Procedures Performed                Results of Procedures

 16) Compare the FY 2013 fourth quarter          The FY 2013 fourth quarter accounts
     accounts receivable reported on the         receivable reported on the Liability for
     fourth quarter Liability for Current        Current        Federal        Employees’
     Federal Employees’ Compensation             Compensation Act Benefits was less than
     Act Benefit report to the FY 2013           the FY 2013 fourth quarter benefit
     fourth quarter benefit payments             payments reported on the Summary
     reported     on    the     Summary          Chargeback Billing Report by $18,148.
     Chargeback Billing Report. Report
     any differences.




38                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                          Agreed-Upon Procedures and Results

   III.    Benefit Expense

Agreed-Upon Procedures Performed                  Results of Procedures

17) Compare the FY 2013 benefit                   No differences were identified as a result of
    payments recorded in the Integrated           applying this procedure.
    Federal Employees Compensation
    System (iFECS) and Central Bill
    Processing System (CBP) databases
    as of March 31, 2013, and September
    30, 2013 to the FY 2013 benefit
    payments reported in the U.S.
    Department of the Treasury’s SF-224
    as of March 31, 2013, and September
    30, 2013. Report any differences.


18) Perform the following procedures              No differences above 1 percent were
    over the reconciliation prepared by           identified as a result of applying this
    the OWCP between the benefit                  procedure.
    payments reported in the Chargeback
    Billings Reports and the benefit
    payments reported in the iFECS and
    CBP databases for the fiscal year
    ended September 30, 2013:
   a) Compare the benefit payments in
       the Chargeback Billings Reports
       reported in the reconciliation to the
       actual     Chargeback         Billings
       Reports.
   b) Compare the benefit payments
       from iFECS and CBP databases
       reported in the reconciliation to the
       actual iFECS and CBP databases.
   c) Identify and report any differences
       above 1 percent.
                                                                                     (continued)




Prepared by KPMG LLP, for the                                                                  39
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

     III.   Benefit Expense

Agreed-Upon Procedures Performed                 Results of Procedures

19) For     all   agencies,   compare            As a result of applying this procedure, we
    compensation and medical bill                identified the following agencies that had
    payments by Agency for the fiscal            variances over 10 percent:
    year ending September 30, 2013,
    from the Summary Chargeback Billing                    Agency               Variance
    Report prepared by DOL, to the                DOS                                  10.70%
    compensation and medical bill                 NRC                                (11.84%)
    payments by agency reported for the           HUD                                (11.13%)
    fiscal years ended September 30,
    2012, in the Summary Chargeback
    Billing Report prepared by DOL.
    Report any variances over 10
    percent.


20) For a selection of 113 compensation          One difference was identified as a result of
    payments       for   initially eligible      applying this procedure. Specifically, a
    claimants, compare beneficiary name,         claimant’s weekly pay rate reported in
    beneficiary social security number           iFECS was overstated by $1,103.
    (SSN), date of birth, benefit amount,
    payment date, and other unique
    identifiers from the applicable Forms
    CA-1, Federal Notice of Traumatic
    Injury and Claim for Continuation of
    Pay/Compensation, and CA-2, Notice
    of Occupational Disease and Claim
    for Compensation to the beneficiary
    name, beneficiary SSN, date of birth,
    benefit amount, payment date, and
    other unique identifiers in iFECS
    database. Report any differences.

                                                                                     (continued)




40                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2C

                          Agreed-Upon Procedures and Results

   III.    Benefit Expense

Agreed-Upon Procedures Performed                  Results of Procedures

21) For a selection of 140 compensation           Three differences were identified as a
    payments for continuing eligibility and       result of applying this procedure.
    file maintenance, compare the related         Specifically,
    beneficiaries’ name, SSN, date of
    birth, benefit amount, and payment                 •   For two sample items, the pay rate
    date from applicable Forms CA-7,                       was incorrect in iFECS;
    Claim for Compensation, and CA-                        and
    1032, Request for Information on                   •   For one sample item, we were
    Earnings, Dual Benefits, Dependents,                   unable to compare the pay rate
    and Third Party Settlements to the                     because the hard copy file, which
    beneficiaries’ name, SSN, date of                      included the applicable supporting
    birth, benefit amount, and payment
                                                           information, was misplaced.
    date in the iFECS database. Report
    any differences.

22) For a selection of 17 medical                 No differences were noted as a result of
    payments, compare the vendor name             applying this procedure.
    and date, from the medical bill, and
    payment amount on the summary
    sheet of the Achieve system to the
    vendor name, payment amount, and
    date in the CBP database. Report any
    differences.

23) Compare the FY 2013 fourth quarter            The FY 2013 fourth quarter benefit
    benefit expense estimate as reported          expense estimate as reported on the
    on the Liability for Current Federal          Liability for Current Federal Employees’
    Employees’      Compensation     Act          Compensation Act Benefits was less than
    Benefits report to the sum of the             the FY 2013 benefit expenses recorded in
    actual FY 2013 fourth quarter benefit         the iFECS and CBP databases by $18,148.
    expenses recorded in the iFECS and
    CBP      databases.   Report    any
    difference.




Prepared by KPMG LLP, for the                                                                  41
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




Appendix




Prepared by KPMG LLP, for the                                                                  43
U.S. Department of Labor—Office of Inspector General
Report Number: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                   Special Reports Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBREVIATIONS

               BLDTF                  Black Lung Disability Trust Fund
               CBP                    Central Bill Processing System
               CFO                    Chief Financial Officers
               COLA                   Cost of Living Allowance
               CPI-Med                Consumer Price Index for Medical
               DHS                    U.S. Department of Homeland Security
               DHHS                   U.S. Department of Health and Human Services
               DOD                    U.S. Department of Defense
               DOC                    U.S. Department of Commerce
               DOE                    U.S. Department of Energy
               DOI                    U.S. Department of the Interior
               DOJ                    U.S. Department of Justice
               DOL                    U.S. Department of Labor
               DOS                    U.S. Department of State
               DOT                    U.S. Department of Transportation
               EEOICP                 Energy Employees’ Occupation Illness Compensation
                                      Program
               EPA                    Environmental Protection Agency
               FECA                   Federal Employees' Compensation Act
               FY                     Fiscal Year
               GSA                    General Services Administration
               HUD                    U.S. Department of Housing and Urban Development
               iFECS                  Integrated Federal Employees’ Compensation System
               NAVY                   U.S. Department of Navy
               NRC                    Nuclear Regulatory Commission
               OCFO                   Office of the Chief Financial Officer
               OMB                    Office of Management and Budget
               OPM                    Office of Personnel Management
               OWCP                   Office of Workers' Compensation Programs
               SBA                    Small Business Administration
               SSA                    Social Security Administration
               SSN                    Social Security Number
               TREAS                  U.S. Department of the Treasury
               VA                     U.S. Department of Veterans Affairs

Prepared by KPMG, for the                                                                      45
U.S. Department of Labor—Office of Inspector General
Report No: 22-14-001-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

               USAID                 U.S. Agency for International Development
               USDA                  U.S. Department of Agriculture
               USPS                  U.S. Postal Service




46                                                                 Prepared by KPMG LLP, for the
                                              U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 22-14-001-04-431
                                                                   Special Reports Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




Prepared by KPMG, for the                                                                      47
U.S. Department of Labor—Office of Inspector General
Report No: 22-14-001-04-431
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:    http://www.oig.dol.gov/hotlineform.htm
Email:     hotline@oig.dol.gov

Telephone: 1-800-347-3756
           202-693-6999

Fax:       202-693-7020

Address:   Office of Inspector General
           U.S. Department of Labor
           200 Constitution Avenue, N.W.
           Room S-5506
           Washington, D.C. 20210
